                                            SOCIAL SECURITY
MEMORANDUM

Date:   October 22, 2001                                                                                Refer To:

To:     Glenna Donnelly
        Acting Deputy Commissioner
         for Disability and Income Security Programs

From:   Assistant Inspector General
         for Audit

Subject: Assessment       of the Electronic Disability Project (A-14-01-11044)


        Thank you for the opportunity to participate on the Electronic Disability (eDib) Steering
        Committee. Audit involvement in systems development is a trend throughout the
        Government and private sectors, and we welcome the opportunity to be of assistance.
        This strategy will allow us to provide input throughout the development process instead
        of waiting until the project is complete and substantial funds have been expended. The
        Office of the Inspector General will not only participate in a consultative function, but will
        be active in identifying any fraud risk factors.

        This memorandum is to provide you with two documents that we have developed while
        gathering information for the eDib project. First, we found 15 sites containing eDib
        information, which were not linked to the official eDib site on SSA’s Intranet (see
        Attachment A). Second, we created a detailed flowchart, which depicts the flow of
        information and related controls in Version 4.0 of the eDib (see Attachment B). We
        conducted our work in Baltimore, Maryland, and Wilmington, Delaware.

        While searching the SSA Intranet for documentation relating to eDib, we noted that the
        Office of Systems Analysis maintained the primary eDib site,1 eDib Central Information
        Site. However, additional information was available from other SSA Intranet sites. On
        some of these sites, we found that the following offices had unique postings: Office of
        Systems Analysis had 21 postings, the Office of Telecommunications and Systems
        Operations had 21 postings, the Executive and Management Information System had
        15 postings, and the unofficial site of Office of Systems Analysis had 10 postings.




        1
            In the near future, the Office of Systems Design and Development will maintain this site.
Page 2 -Glenna     Donnelly


It would be more efficient if the central site contained all the information, or at a
minimum, provided links to the other sites containing eDib information. For this to
succeed, the eDib Steering Committee needs to decide which component should
control the central location to ensure all information is available. Attachment A lists the
SSA Intranet sites containing eDib information and documents located on those sites as
of May 14, 2001. As of October 5, 2001, we verified that the Intranet issues described
above still existed.

During our search for information, we could not locate a detailed flowchart depicting the
flow of information and related controls in Version 4.0 of eDib. This type of flowchart
has been of great value to organizations. It simplifies the identification of internal
controls and their interrelationships in a system and helps in assessing their adequacy.

Attachment B provides a flowchart, which we prepared with assistance from SSA's
Wilmington, Delaware staff, to show the eDib Version 4.0 process at work and the
controls in that process. Our flowchart is based on the field office procedure followed to
process a claim in the eDib "proof of concept" site of Wilmington, Delaware. We
designed our flowchart to show what forms are accessed to complete most claims
because the key system controls are inherent in this process. Upon your request, we
are ready to work with SSA staff to update this flowchart as needed.

Based on the information we found, we suggest the eDib Steering Committee:

1. Expand the eDib Central Information Site to provide links to other sites containing
   eDib information or consolidate all the eDib information in the central site.

2    Designate one SSA component to maintain and control the eDib information on
     SSA's Intranet.

3,   Update the process flowchart with each new major version of eDib.

We prepared these suggestions to help facilitate the eDib systems development
process. There is no expectation for the Agency to formally respond to these
suggestions. We look forward to participating in the eDib Steering Committee. If you
have any questions or comments, please call me or have your staff contact Kitt Winter,
Director, Systems Audit Division at (410) 965-9702. Members of the eDib Steering
Committee may contact Ms. Winter directly or AI Darago at (410) 965-9710.




                                                    ~cW       !;   ~~
                                                 Steven   L. schaeffer-(fV\


Attachments

cc:
James G. Huse, Jr., Inspector General
Lenore Carlson, Chair, eDib Steering Committee
                                                                    ATTACHMENT A


        List of eDib Items on SSA Intranet as of May 14, 2001

 Site        Item                                           Universal Resource
                                 Item Title
Source       Date                                             Locator (URL)
OSA eDib                Background Information on
                                                        http://co.ba.ssa.gov/osa/edib/edibb
  Site                  eDib
                                                        knd.htm
                      Management Plan for the
OSA eDib              development of the Agency's
           2000-08-03                                   http://co.ba.ssa.gov/osa/edib/mgmt
  Site                Electronic Disability System
                                                        plan.pdf
                      eDib

OSA eDib                eDib Project Scope Agreements
                                                        http://co.ba.ssa.gov/osa/edib/versio
  Site                  Version 1
                                                        n1psa.pdf

OSA eDib                eDib Project Scope Agreements
                                                        http://co.ba.ssa.gov/osa/edib/versio
  Site                  Version 2
                                                        n2psa.pdf

OSA eDib                eDib Project Scope Agreements
           1999-12-17                                   http://co.ba.ssa.gov/osa/edib/versio
  Site                  Version 3, Version 1.6
                                                        n3psa.pdf

                        eDib Project Scope Agreements
 OSPI      1999-12-09                                   http://co.ba.ssa.gov/ospi/c2k/web
                        Version 3, Version 1.5
                                                        %5Fpsas/edib%2Dv3%2Dpsa.doc

OSA eDib                eDib Project Scope Agreements
           2000-03-08                                   http://co.ba.ssa.gov/osa/edib/versio
  Site                  Version 4
                                                        n4psa.pdf

OSA eDib                eDib Project Scope Agreements
                                                        http://co.ba.ssa.gov/osa/edib/versio
  Site                  Version 4.1, version 1.4
           2000-10-06                                   n4_1psa.pdf

                        eDib Project Scope Agreements
 OSPI                                                   http://co.ba.ssa.gov/ospi/c2k/web
                        Version 4.1, version 1.4
                                                        %5Fpsas/2790edib.htm

OSA eDib
           2000-12-01 FAQs                              http://co.ba.ssa.gov/osa/edib/faq.p
  Site
                                                        df
                      Contacts for hardware,
OSA eDib
           2000-05-02 configuration or software         http://co.ba.ssa.gov/osa/edib/probl
  Site
                      problems                          ems.pdf

OSA eDib                Version 4 Problems and their
           2001-02-01                                   http://co.ba.ssa.gov/osa/edib/oprob
  Site                  status
                                                        rep.doc

                                                                            Page 1 of 12
                                                                       ATTACHMENT A


       List of eDib Items on SSA Intranet as of May 14, 2001

 Site        Item                                              Universal Resource
                                  Item Title
Source       Date                                                Locator (URL)
OSA eDib                Electronic Folder - Statement of
           2000-06-08                                      http://co.ba.ssa.gov/osa/edib/sow.p
  Site                  Work
                                                           df
                        Electronic Folder - Effort to
                        Contract with Levy and Versa to
OSA eDib
                        Build Generic Interfaces to        http://co.ba.ssa.gov/osa/edib/levyv
  Site
                        SSA’s Electronic Disability        ersa.htm
                        Folder


OSA eDib                Electronic Folder - Electronic
           2000-12-07                                      http://co.ba.ssa.gov/osa/edib/strat.
  Site                  Disability (eDib) Strategy Paper
                                                           pdf
                      Electronic Folder - Business
OSA eDib
           2000-05-03 Process Description for eDib         http://co.ba.ssa.gov/osa/edib/buspr
  Site
                      Version 3                            oc.pdf
                        Electronic Folder- eDib field
OSA eDib
                        office to DDS Claim Transfer       http://co.ba.ssa.gov/osa/edib/graph
  Site
                        graphic                            ics/fotodds.jpg

OSA eDib                Electronic Folder - Plan to
                                                           http://co.ba.ssa.gov/osa/edib/pilots
  Site                  Identify eDib Pilot Sites
                                                           ites.pdf
                      Electronic Folder -
OSA eDib              STRAWMAN PAPERLESS
           2000-05-01                                      http://co.ba.ssa.gov/osa/edib/straw
  Site                BUSINESS PROCESS
                                                           man.pdf
                      DESCRIPTION
                      New York Paperless Pilot
OSA eDib
           2000-11-01 System - KEY INITIATIVE              http://co.ba.ssa.gov/osa/edib/nypil
  Site
                      CONCEPT PAPER                        ot.pdf
                        New York Paperless Pilot
                        System -
OSA eDib
           2000-11-15                                      http://co.ba.ssa.gov/osa/edib/nydfr.
  Site
                        Functional Requirements            pdf
                        Document

OSA eDib
                        Regional Contacts                  http://co.ba.ssa.gov/osa/edib/rocon
  Site
                                                           t.htm
OSA eDib                                                   http://co.ba.ssa.gov/osa/edib/edibw
                        SSA Web: eDib Central Site
  Site                                                     eb.htm
                                                                                Page 2 of 12
                                                                    ATTACHMENT A


       List of eDib Items on SSA Intranet as of May 14, 2001

EMIS      2000-02-29 Key Initiative Plan and Schedule   http://co.ba.ssa.gov/emis/mgmnt/2
                                                        002wd/2002ki/fy2002ki13.doc

OSA                   5-year plan - eDib                http://co.ba.ssa.gov/osa/5yrplans/fi
                                                        les/plans/dib.xls

OTSO                  Oracle Instance Report            http://co.ba.ssa.gov/otso/dts/dsab/d
                                                        dat_oracle_right.htm
                      SSA FY 2002 Annual
                      Performance Plan – p78
                      Indicator: Implement activities
                                                        http://co.ba.ssa.gov/emis/mgmnt/2
EMIS                  necessary to have the software
                                                        002wd/2002app/2002appworld.do
                      and infrastructure in place for
                                                        c
                      electronic processing of
                      disability claims




                                                                            Page 3 of 12
                                                                        ATTACHMENT A


        List of eDib Items on SSA Intranet as of May 14, 2001

                                                            http://co.ba.ssa.gov/otso/otso%5Fe
                                                            mp%5Fhelp/otso%5Fconferences/
                        Wang/Levy 3/22/00 – Summary         sasus/documents/spring%20sasus
                        of Federal Day at Spring SASUS      %202000%20notes.doc
                        held in Tuscon AZ March 21,
                        2000                                http://co.ba.ssa.gov/otso/otso%5Fc
OTSO       2000-03-21
                                                            onferences/sasus/documents/sprin
                                                            g%20sasus%202000%20notes.doc
                        SASUS = State Agency Systems
                        User Services                       http://co.ba.ssa.gov/otso/otso%5Fc
                                                            onferences/sasus/documents/sprin
                                                            g%20sasus%202001%2D%20od%
                                                            20.doc
                      FY2002 Working Documents –
                      edib entry points to key initiative
EMIS       2000-10-06                                       http://co.ba.ssa.gov/emis/mgmnt/2
                      plan and schedule as of
                                                            002wd/2002wd.htm
                      02/29/2000

                        The Role of the Office of
EMIS       2001-01-?                                        http://co.ba.ssa.gov/emis/mgmnt/pl
                        Systems
                                                            anguid/5yearplanctwleads.doc

OSDD                    OSDD Projects                       http://co.ba.ssa.gov/osdd/projects.
                                                            htm

                                                            http://co.ba.ssa.gov/stecs/datalink/
STECS                   Data Link - The Lab Corner
                                                            documents/september 2000/lab
                                                            corner - dsel prod emulation.htm
                      Distributed Data Architecture
OTSO       2001-02-15 Team list of UNIX servers as of       http://co.ba.ssa.gov/otso/dts/dsab/
                      2/15/01                               ddat_reports_right.htm

                                                            http://co.ba.ssa.gov/osdd/dsel/dsel
                                                            proj.htm
                        DSEL Projects has created a
                        simulated production Wide Area      http://co.ba.ssa.gov/stecs/datalink/
OSDD                    Network (WAN) environment           documents/september%202000/lab
                        for client-server application       %20corner%20%2D%20dsel%20p
                        testing and validation.             rod%20emulation.htm

                                                            http://co.ba.ssa.gov/osdd/dsel/old
                                                            %5Fdselproj.htm
                                                                                Page 4 of 12
                                                                      ATTACHMENT A


       List of eDib Items on SSA Intranet as of May 14, 2001
                    SEC.xls Security Support data
OSA                 for edib versions 4.0 4.1, 4.2, 4.3   http://co.ba.ssa.gov/osa/5yrplans/f
                    and 5.0                               iles/plans/sec.xls

OTSO                Non prod oracle servers.xls           http://co.ba.ssa.gov/otso/dts/dsab/
                                                          non prod oracle servers.xls

                    2002 Program for Objective            http://co.ba.ssa.gov/emis/mgmnt/2
EMIS
                    Summary Report DI/SSI                 002wd/2002poa/2002
                                                          poa9dissidisability.doc

                    Hw.xls – item 83 is edib support
OSA                                                       http://co.ba.ssa.gov/osa/5yrplans/f
                    project
                                                          iles/plans/hw.xls

OSA                 CTW Chart 9-00.xls                    http://co.ba.ssa.gov/osa/ctw/archiv
                                                          e9-00/files/ctwchart9-00.xls
                    Division of Claims and Controls
OSA                 listing employees assigned to EF      http://co.ba.ssa.gov/osa/dcc.htm
                    and edib-MIDAS interface

                    October 2000 LSTT Application
                                                          http://co.ba.ssa.gov/otso/diet/lctb/l
                    Assignments
OTSO                                                      stt/contact.htm

                    IWSLAN Software Testing
                                                          http://co.ba.ssa.gov/otso/diet/csstb/
                    Team
                                                          lstt/contact.htm

                                                          http://co.ba.ssa.gov/otso/diet/lctb/l
                    LAN Software Testing Team             stt/lstt.htm
OTSO
                    Home Page
                                                          http://co.ba.ssa.gov/otso/diet/csstb/
                                                          lstt/lstt.htm

                    CTW Function Point Report for
OSPI                                                      http://co.ba.ssa.gov/ospi/c2k/functi
                    edib release 4.2
                                                          onpoints/2790edib.htm

                    Key Initiatives as of January
EMIS                                                      http://co.ba.ssa.gov/emis/mgmnt/pl
                    2001
                                                          anguid/kissystemsneeds.doc

                    OIM MIB Disability Systems
OIM                                                       http://co.ba.ssa.gov/oim/divisions/
                    Branch
                                                          dads/mib/mib.htm

                                                                               Page 5 of 12
                                                                     ATTACHMENT A


       List of eDib Items on SSA Intranet as of May 14, 2001

                       FY 2003 Working Documents
EMIS      200-10-06                                      http://co.ba.ssa.gov/emis/mgmnt/2
                       (edib file password protected)
                                                         003wd/2003wd.htm

                                                         http://co.ba.ssa.gov/emis/exec/qmg
EMIS      2000-12-01 Quarterly Management Meeting
                                                         mt/files/december_technology_up
                                                         date.ppt
                     Matrix.xls - List of FY 2002
                     programs and how they meet
                     certain subsets of SSA’s
                     objectives such as Responsive
EMIS      2001-02-08                                     http://co.ba.ssa.gov/emis/mgmnt/2
                     Programs, World Class Service,
                                                         002wd/matrix01/matrix.xls
                     Program Integrity, Valued
                     Employees and Public
                     Understanding

                                                         http://co.ba.ssa.gov/otso/otso_txt_
                                                         conferences/austiniii_txt/papers_tx
                                                         t/austin meeting notes (da and sf
                                                         regions).doc

                                                         http://co.ba.ssa.gov/otso/otso%5Fe
                                                         mp%5Fhelp/otso%5Fconferences/
                       Austin III Conference - OTSO
OTSO      2000-02-29                                     austiniii/papers/austin%20meeting
                       presenters
                                                         %20notes%20%28da%20and%20s
                                                         f%20regions%29.doc

                                                         http://co.ba.ssa.gov/otso/otso%5Fc
                                                         onferences/austiniii/papers/austin
                                                         %20meeting%20notes%20%28da
                                                         %20and%20sf%20regions%29.do
                                                         c

                                                         http://co.ba.ssa.gov/otso/otso_conf
OTSO      2000-08-30 Fall SASUS Notes
                                                         erences/sasus/documents/fall sasus
                                                         2000 notes.doc

                       MI.xls – 5 year plans - edib mi
OSA                                                      http://co.ba.ssa.gov/osa/5yrplans/f
                       version 4 is item 11
                                                         iles/plans/mi.xls

                       Appendix 3 - Description of Key
                                                         http://co.ba.ssa.gov/emis/mgmnt/2
                       Initiatives
                                                         001app/append3.htm

                                                                             Page 6 of 12
                                                                   ATTACHMENT A


       List of eDib Items on SSA Intranet as of May 14, 2001

                       eDib section on page 11          http://co.ba.ssa.gov/emis/mgmnt/2
EMIS      2001-02-02
                                                        001app/append3.htm#electronic_d
                                                        is
                       Appendix 5 – Key Initiative
                       Table of Contents                http://co.ba.ssa.gov/emis/mgmnt/2
                       eDib summary on page 7           002wd/2002app/2002appex5.doc

                       Systems Partnership Council -
DCS                                                     http://co.ba.ssa.gov/dcs/spc/min10
                       Draft Minutes
                                                        99.doc
                     List of FY 2002 programs and
                     how they meet certain subsets of
                     SSA’s objectives such as
EMIS      2001-05-08 Responsive Programs, World        http://co.ba.ssa.gov/emis/mgmnt/2
                     Class Service, Program Integrity, 003wd/2003poa/gloria2003.xls
                     Valued Employees and Public
                     Understanding




                                                                           Page 7 of 12
                                                                       ATTACHMENT A


        List of eDib Items on SSA Intranet as of May 14, 2001


                        Laptops IMB ThinkPad 600E          http://co.ba.ssa.gov/otso/otso%5Fe
                        Notebook – Power Point             mp%5Fhelp/otso%5Fconferences/
                        Presentation Cost $67.250          sasus/presentations/ddpms%20iws
                        Million                            lan.ppt

                                                           http://co.ba.ssa.gov/otso/otso%5Fe
                                                           mp%5Fhelp/otso%5Fconferences/
OTSO       1999-10-19 No edib entry on any of 18
                      screens                              austiniii/presentations/iwslan%2D
                                                           print%2Dcommunications%20pres
                                                           entation.ppt
                        National IWSLAN Followon           http://co.ba.ssa.gov/otso/otso%5Fc
                        Plans – LANS, Desktops,            onferences/austiniii/presentations/i
                        Laptops and Printers               wslan%2Dprint%2Dcommunicatio
                                                           ns%20presentation.ppt
                        SEF Configuration Page 1
STECS                   CICS Development Regions as        http://co.ba.ssa.gov/stecs/cicschrt.
                        of 04/03/01                        doc

           2001-02-15                                      http://co.ba.ssa.gov/emis/mgmnt/pl
                        The Role of Key Initiative Leads
                                                           anguid/ki leads.doc
EMIS                    and Teams
                        List of contacts for each KI
           2001-03-30                                      http://co.ba.ssa.gov/emis/mgmnt/pl
                                                           anguid/ki%20leads.doc
                        Distributed Software
OSDD                    Engineering Library                http://co.ba.ssa.gov/osdd/dsel/dsel
                        DSEL Projects                      _endof2000/dselproj.htm

                        Key Initiative: Return to Work
EMIS                                                       http://co.ba.ssa.gov/emis/mgmnt/2
                        eDib, appendix 3
                                                           001app/word/plan4.doc

                      Quarterly Workload Meeting
                                                           http://co.ba.ssa.gov/emis/exec/qmg
                      Latest news in Information
                                                           mt/files/systems_initiatives,_priorit
                      Technology Power Point show
                                                           ies.ppt
                      Rydstrom, Hamer and
EMIS       2000-02-08 Mesterharm show 9 screens; just
                      titles; no data
                                                           http://co.ba.ssa.gov/emis/exec/qmg
                        Presentation with ITS cost for
                                                           mt/files/systems%5Finitiatives%2
                        edib and other initiatives
                                                           C%5Fpriorities.ppt
OSA        2001-02-12 Functional Directory of OSA.         http://co.ba.ssa.gov/osa/directory.d

                                                                                Page 8 of 12
                                             ATTACHMENT A


List of eDib Items on SSA Intranet as of May 14, 2001
             eDib on pages 6 and 35   oc




                                                   Page 9 of 12
                                                                       ATTACHMENT A


        List of eDib Items on SSA Intranet as of May 14, 2001


                        OSA Division of Requirements
                        Support and Security – Lists
                        contacts in Control Audit and
                        Security Branch and subsets
                        CATF, Audit and Integrity
                        Review Team, and Security and
OSA                                                        http://co.ba.ssa.gov/osa/drss.htm
                        Internal Control Team. The
                        Network/Exchange/ Office
                        Automation Team has
                        responsibility for determining
                        imaging H/W and S/W
                        requirements for edib
                        Identify Security Requirements
                        Early                              http://co.ba.ssa.gov/stecs/datalink/
                                                           documents/september 2000/all.htm
STECS      2000-09-01 Article in STECS DataLink
                      Newsletter that lack of security http://co.ba.ssa.gov/stecs/datalink/
                      planning slowing down fast track documents/september%202000/all.
                      internet/intranet projects       doc

           2000-10-19                                      http://co.ba.ssa.gov/otso/diet/ccb/s
                        Forecast.xls – Description and
                                                           upfiles/forecast.xls
OTSO                    status of initiatives
                        Support files and reports
           2001-05-10                                      http://co.ba.ssa.gov/otso/diet/repor
                                                           ts/forecast.xls

                        Onlineappl.old
                                                           http://co.ba.ssa.gov/otso/diet/mistb
                                                           /onlineappl.old
                        Online Application Schedule as
OTSO                                                       http://co.ba.ssa.gov/otso/diet/mistb
                        of 05/08/01
                                                           /onlineappl.htm
                        Online application schedule as of
                                                          http://co.ba.ssa.gov/otso/diet/mistb
                        04/20/00
                                                          /onlineappl.old
                        Ccbdly.rtf
                                                           http://co.ba.ssa.gov/otso/diet/repor
                                                           ts/ccbdly.rtf
                        CCB Daily Abstract as of
OTSO
                        05/10/01                           http://co.ba.ssa.gov/otso/diet/repor
                                                           ts/ccbdly.rtf
                        CCB Daily Abstract as of
                        11/07/00                           http://co.ba.ssa.gov/otso/diet/ccb/d

                                                                              Page 10 of 12
                                                 ATTACHMENT A


List of eDib Items on SSA Intranet as of May 14, 2001
                                     rc/ccbdly.rtf




                                                     Page 11 of 12
                                                                         ATTACHMENT A


         List of eDib Items on SSA Intranet as of May 14, 2001


  OTSO                   Applications in Production          http://co.ba.ssa.gov/otso/diet/repor
                                                             ts/apswstrpt.doc

  OSA                    OSA Division of SSI Systems         http://co.ba.ssa.gov/osa/directory.
                                                             doc

  OTSO                   Ccbdly.old                          http://co.ba.ssa.gov/otso/diet/repor
                                                             ts/ccbdly.old

                         Systems Conference Agenda
SYSCONF     2001/06/06                                       http://co.ba.ssa.gov/sysoffconf/age
                         06/06/2001
                                                             nda.html
                         Index of Online Courses (select
TRAINING                 E and then scroll down for 12       http://training.ba.ssa.gov/ot
                         edib courses)

                         Who wants to be an eDib Expert
                                                             http://co.ba.ssa.gov/otso/otso%5Fc
  OTSO                   presentation given at the 2001
                                                             onferences/sasus/presentations/edi
                         Spring SASUS conference
                                                             bmillionaire.ppt

                         OSA Home Page with eDib
  OSA                                                        http://co.ba.ssa.gov/osa/default.ht
                         selection option
                                                             m

                         DIET paperless FO Test for          http://co.ba.ssa.gov/ssawin2000/iss
SSAWIN20
                         Windows 2000                        uestracking/dietpaperlessfotestfor
   00
                                                             windows2000.doc

                         A list of the presentations to be
SYSCONF                                                      http://co.ba.ssa.gov/sysoffconf/pre
                         given at this year's conference.
                                                             sentations.html


                         SASUS 2001 list of                  http://co.ba.ssa.gov/otso/otso%5Fc
                         Presentations                       onferences/sasus/sasus.htm

                         Who wants to be an eDib Expert      http://co.ba.ssa.gov/otso/otso%5Fc
  OTSO                                                       onferences/sasus/Presentations/eDi
                         presentation given at the 2001
                         Spring SASUS conference             bMillionaire.ppt

                         AS 400 Migration Presentation       http://co.ba.ssa.gov/otso/otso%5Fc
                                                             onferences/sasus/Presentations/AS
                                                             400%20migration%2001%20SAS

                                                                                Page 12 of 12
                                                             ATTACHMENT A


       List of eDib Items on SSA Intranet as of May 14, 2001
                                                 US.ppt
                    Applications Monitored by
                    SmartWatch                   http://co.ba.ssa.gov/otso/docpm/np
OTSO                                             ab/charts/smartwatch.htm

                    EDib response time reports   http://ntreports.ba.ssa.gov/sw/edib/




                                                                    Page 13 of 12
                                                                    ATTACHMENT A


       List of eDib Items on SSA Intranet as of May 14, 2001


                     System Information on status of    http://co.ba.ssa.gov/otso/dtss/unix/
                     UNIX host machines using CA        etrust.htm
OTSO      2001-05-04 management software Unicenter
                     TNG and firewall software tool,    http://co.ba.ssa.gov/otso/dtss/unix/
                     eTrust                             tng%5Fetrust%5Fstatus%5Fwebpa
                                                        ge.xls
                     Implement activities necessary
                     to have the software and
                     infrastructure in place for
                     paperless processing of disability
                     claims - This goal will have been
EMIS      2001-04-18 met if we develop, test, validate  http://co.ba.ssa.gov/emis/mgmnt/2
                     and implement release 3.8 of       002wd/2002pi/2002dsh41n.doc
                     MCS. This goal will have been
                     met when we develop, test,
                     validate, implement and
                     evaluate Version 4 of eDib
                     NS-Elite Replacement Offsite
                     Power Point Presentation Screen
OTSO      2001-05-01                                    http://co.ba.ssa.gov/otso/dcsc/ilsb/i
                     5 of 7 shows that edib will be
                                                        lsbihrdoffsite.ppt
                     affected

                                                        http://co.ba.ssa.gov/otso/dcsc/ilsb/
                                                        040401notes.doc
                       Client Server Configuration
                       Meeting Minutes 04/04/01 –
                                                        http://co.ba.ssa.gov/otso/dcsc/ilsb/
                       Item 2 gives edib status
                                                        dcsc%20meeting%20minutes%20
OTSO      2001-05-01                                    040401.doc
                       04/11/01 Minutes
                                                        http://co.ba.ssa.gov/otso/dcsc/ilsb/
                                                        041101notes.doc
                       04/18/01 Minutes
                                                        http://co.ba.ssa.gov/otso/dcsc/ilsb/
                                                        041801notes.doc
                     OTSO Presentation at Spring
                     SASUS on Technology
                     Initiatives. SSAnet                http://co.ba.ssa.gov/otso/otso%5Fc
OTSO      2001-03-20
                     Modernization, Frame Relay,        onferences/sasus/presentations/spri
                     Virtual Private Network, AS400     ng%20sasus%20032001.ppt
                     support for DDS


                                                                           Page 14 of 12
                                                                     ATTACHMENT A


      List of eDib Items on SSA Intranet as of May 14, 2001
                    Office of Public Service and
                    Operations Support (OPSOS).
                    OPSOS is responsible for the
                    operational delivery of public
                    service and the overall
                    effectiveness and efficiency of
                    DCO components. We conduct
                    studies, analyses and
                    implementation planning on a
                    myriad of issues related to the
                    RSDI, SSI and HI programs, and
                    provide leadership on customer
                    service delivery, budget,
                    management information and
         2001-04-01 administration issues. The           http://cofp.ba.ssa.gov/opsos/pages/
                    Division of Program Policy and       DABDIREC.HTM#gillian
                    Operations works with the
                    Regions and central office
                    components to develop and
                    implement new legislation, new
                    policies, and to develop
                    strategies to improve current
                    existing policies and service
                    delivery. The Disability
                    Analysis Branch is responsible
                    for issues related to the disability
                    program. In DAB, the person
                    monitoring edib and HIPAA is
                    Gillian Crane.

                                                         http://cofp.ba.ssa.gov/dds/docume
                    DDS Mini Forum – Florida.
DDS      2000-11-01                                      nts/DDS%20Mini-
                    Slide show on frame relay
                                                         Forum%20Florida%20110100_file
                                                         s/frame.htm#slide0020.htm




                                                                            Page 15 of 12
                                                      ATTACHMENT A


      List of eDib Items on SSA Intranet as of May 14, 2001
                   OAS Highlights

                   May 14, 2001            http://ro.ba.ssa.gov/dco%5Foas/oa
                                           sinternal/highlights/051401.htm

                   May 7, 2001             http://ro.ba.ssa.gov/dco%5Foas/oa
                                           sinternal/highlights/050701.htm

                   April 30, 2001          http://ro.ba.ssa.gov/dco%5Foas/oa
                                           sinternal/highlights/043001.htm

                   April 23, 2001          http://ro.ba.ssa.gov/dco%5Foas/oa
                                           sinternal/highlights/042301.htm

                   April 16, 2001          http://ro.ba.ssa.gov/dco%5Foas/oa
                                           sinternal/highlights/041601.htm

                   April 9, 2001           http://ro.ba.ssa.gov/dco%5Foas/oa
                                           sinternal/highlights/040901.htm

                   April 2, 2001           http://ro.ba.ssa.gov/dco%5Foas/oa
                                           sinternal/highlights/040201.htm
DCO
                   March 26, 2001          http://ro.ba.ssa.gov/dco%5Foas/oa
                                           sinternal/highlights/032601.htm

                   March 19, 2001          http://ro.ba.ssa.gov/dco%5Foas/oa
                                           sinternal/highlights/031901.htm

                   March 12, 2001          http://ro.ba.ssa.gov/dco%5Foas/oa
                                           sinternal/highlights/031201.htm

                   March 5, 2001           http://ro.ba.ssa.gov/dco%5Foas/oa
                                           sinternal/highlights/030501.htm

                   February 26, 2001       http://ro.ba.ssa.gov/dco%5Foas/oa
                                           sinternal/highlights/022601.htm

                   February 12, 2001       http://ro.ba.ssa.gov/dco%5Foas/oa
                                           sinternal/highlights/021201.htm

                   February 5, 2001        http://ro.ba.ssa.gov/dco%5Foas/oa
                                           sinternal/highlights/020501.htm

                   January 29, 2001        http://ro.ba.ssa.gov/dco%5Foas/oa
                                           sinternal/highlights/012901.htm
                                                               Page 16 of 12
                                                              ATTACHMENT A


       List of eDib Items on SSA Intranet as of May 14, 2001


                    January 22, 2001               http://ro.ba.ssa.gov/dco%5Foas/oa
                                                   sinternal/highlights/012201.htm

                    January 8, 2001                http://ro.ba.ssa.gov/dco%5Foas/oa
                                                   sinternal/highlights/010801.htm

philanet            eDib Delaware pilot web site   http://philanet.ph.ssa.gov/eDib/eDi
                                                   b.htm




                                                                     Page 17 of 12
EDIB VERSION 4.0 FIELD OFFICE PROCESS                                                            ATTACHMENT B
INITIAL CONTACT




                                START




  Claimant wants
   to apply for                 Login to                   Validate user PIN in
     disability                mainframe                  mainframe, SAC codes
                               (6 digit pin)                assigned for CR
                                                                 access



                                                A
    Claimant
                   No
     phone?

       Yes                             Claimant walk-in                            Wait to be        Work on
                                                            Appointment?    No
                                        to field office                           called by CR        3368

      Phone
                        No                                     Yes
    interview?


                                                    B       Meet with                                   B
       Yes                                                Claims Rep (CR)




     Mainframe               Mail self-help                 Access EDCS
      pg. 2                  form 3368 to                      pg. 4
                               claimant




                         Schedule appointment
                             for walk-in in
                          appointment system




                                   A




                                                                                                     Page 1 of 11
EDIB VERSION 4.0 FIELD OFFICE PROCESS                                           ATTACHMENT B
ACCESS MAINFRAME




                  Mainframe
                 pgs. 1, 4 &
                      10




                  Access
                  MCS or
                  MSSICS




                   Change
              identified while               No
                  in eDib?


                   Yes

                Change or add                          Initial
                 nonmedical
                                 MCS or MSSICS      nonmedical
                 info in MCS       data bases      info in MCS
                  or MSSICS                         or MSSICS




                 Repropagate         Data           Create       Claim folder
                   pg. 10            Base         claim folder
                                     pg. 4                                      Folder
                                                                                pg. 11

                                                    Print        Mainframe
                                                  mainframe       forms
                                                    forms


                                                   eDib Case
                                                     pg. 3




                                                                                         Page 2 of 11
EDIB VERSION 4.0 FIELD OFFICE PROCESS                                                 ATTACHMENT B
CASE REVIEW



                              eDib Case
                                pg. 2




                              eDib eligible
                                 case?
                                                No

                                  Yes                          Manually
                                                             prepare 3368,
                                                               3367, and
                                eDib                             827's
                              accessible?        No


                                  Yes                                   3368
                                                                              3367
                                                                                 827's
                            Claimant prepared
                                                No     D
                             3368 is usable?



                                  Yes

                              CR update
                                                                             Folder
                              & approve               3368
                                                                             pg. 11
                                3368




                                  Access
                                  EDCS
                   D               pg. 4




                                                                                          Page 3 of 11
EDIB VERSION 4.0 FIELD OFFICE PROCESS                                                                                     ATTACHMENT B
ACCESS EDCS

                     Access EDCS
                      pgs.1 & 3




                       Access
                       EDCS
                       system

                                                            Pending
                     SSA disability           E              pg. 11
                     claims system
                          menu




                                             Search eDib
                   Access
                                             database                   Locate                   Claim input in                  Mainframe
               disability case                                                           No                              No       pg. 2
              selection screen               using client               case?                    MCS/MSSICS?

                                             SSN or name
                                                                          Yes                          Yes

                                                                       Access initial
             Data                                                         case in
                                                                                                 Case trasnsferred
                                                                                                                                 Select
             Base                                                     disability case                                    No     pending
                                                                                                    to DDS?
                                                                      selection screen
             pg. 2                                                                                                                case

                                                                                                       Yes

                                                                                               Phone information to            Select Form
                                                                                                 DDS & fax/mail                   pg. 5
       MCS       MSSICS               ICDB                                                    additional documents, if
                                                                                                    any, to DDS


       MBR           SSR         Numident



                                                                                                     DDS
                                                                                                     pg. 11

                                                                  EDCS screen
                                                                 propagated with
                                                                 nonmedical data



                                                                  Claim assigned              Select Form
                                                                   unique eDib                   pg. 5
                                                                      claim #




                                                                                                                              Page 4 of 11
EDIB VERSION 4.0 FIELD OFFICE PROCESS                                          ATTACHMENT B
3368 OPTIONS IN EDCS




                    3368
                    pg. 5




                 Access form
                  selection
                    screen




                  Claimant                               3368 tab added            3368 Data
                                        Select key
                prepared 3368   No                         to collect                Entry
                                         option                                      pg. 7
                  is usable?                                notebook


                    Yes


                 Can 3368 be
                                         Select
                  scanned?
                                No       paper        Manually            3368
                                                     prepare 3368
                                         option

                    Yes

                   Select                Select
                                                                          Folder
                    scan                 Form
                                         pg. 5                            pg. 11
                   option




                                                                                         Page 6 of 11
EDIB VERSION 4.0 FIELD OFFICE PROCESS                                                  ATTACHMENT B
EDCS DATA ENTR Y - 3368


                                   3368 Data
                                     Entry
                                     pg. 6




                                      3368




                                 Input data



                                 ID contacts,
                                 illness onset
                                 & work data




                                                                       DDS vendor
                                   Medical               Obtain           file
                                  sources &
                                 medication &
                                                        provider
                                     tests              address
                                                                       Phone book, medication
                                                                       labels, provider invoices
                                                                            & other sources
                                 Education,
                                 Voc. Rehab.
                                  & remarks



                   Corrected
                                 Pass field &
                                                            Edit
                  3368 Edits                      No
                    pg. 10       screen edits?             pg. 10


                                     Yes


                                  Is the 3368
                                created in eDib    No
                                   complete?


                                     Yes

                                   Is 3367               Select Form
                                 needed now?      No         pg. 5



                                     Yes

                                    Hit                  3367
                                  forward                pg. 8
                                     tab
                                                                                                   Page 7 of 11
EDIB VERSION 4.0 FIELD OFFICE PROCESS                                                         ATTACHMENT B
EDCS DATA ENTRY - 3367


                                             3367
                                           pgs. 5 & 7




                                              3367




                                          Input data




                                         Record onset,
                                         prior filing &
                                         presumptive
                                              data




                                           Phone
                                         interview?              No


                                             Yes
                                         Record "N/A" as              Record
                                          observations                observations
                                          made during                 made during
                                            interview                 interview




                                                      Record
                                                     Med. Dev.
                                                      remarks



                             Corrected                                                Edit
                            3367 Edits               Pass field &
                                                     screen edits?
                                                                        No           pg. 10
                              pg. 10


                                                           Yes


                                                     Select Form
                                                        pg. 5




                                                                                                  Page 8 of 11
EDIB VERSION 4.0 FIELD OFFICE PROCESS                                                              ATTACHMENT B
EDCS DATA ENTRY - 827



              827
             pg. 5




              827



            3367             827 not         Select Form
                       No                        pg. 5
          completed?        accessible
                                                               F
             Yes

                                                           Count # of              Print 2 blank
             3368           EDCS 3368                      providers               copies of 827
                       No   completed?
                                             No                                    & copies for
           scanned?                                        from 3368                 providers

             Yes                Yes

                             Print 2 blank                                 Obtain
                                                                                                        827
              F              copies of 827                                claimant
                             & copies with                              signature on                         827
                             provider data                                  827's




                             Select Form
                                pg. 5
                                                                                                    Folder
                                                                                                    pg. 11




                                                                                                       Page 9 of 11
EDIB VERSION 4.0 FIELD OFFICE PROCESS                                                                                ATTACHMENT B
EDCS CONTROLS AND OTHER UTILITIES


                         Edit                                                                          Erase
                       pgs. 7, 8                                                                       pg. 11



                      15 second
                      automatic                                                                    Erase backup on
                       backup                                                                         hard drive




                                                    Mainframe
                     MCS/MSSICS                                                                     PC hard drive
                                           No        pg. 2
                       accurate?
                                                                                                       backup
                                                                      Repropagate
                          Yes                                            pg. 2




                                                                      Repropogate
                                                                         utility




                                                                       EDCS Screen
                                                                    repropagated with
                                                                     nonmedical data
                                                                     propagated field
                                                                    change overwritten




                                                     System beeps,
           G            Pass field        No                                           Make
                                                     cannot complete                                         G
                          edits?                          field                      corrections

                              Yes

                                                                                              Do not save
                       Are mandatory
                                                           Is data                               screen,
           H            screen edits        No                                  No
                        completed?                        available?                         exit screen for
                                                                                             another screen
                              Yes                            Yes


                  Corrected             Corrected
                                       3367 Edits
                                                                H                              Select Form
                 3368 Edits
                                         pg. 8                                                    pg. 5
                   pg. 7




                                                                                                                         Page 10 of 11
EDIB VERSION 4.0 FIELD OFFICE PROCESS                                           ATTACHMENT B
SELECT EDCS FORM



  Select Form
  pgs. 4, 6, 7,
   8, 9 & 10




    Select             Select           Select          Select                 Select
                                                                                                      Exit
                  No            No               No   cover sheet?
                                                                     No     other forms?
                                                                                              No     pg. 11
    3368?              3367?             827?

     Yes                Yes              Yes             Yes                   Yes


     3368              3367              827           Cover              3369, 795, 5002
     pg. 6             pg. 8            pg. 9          pg. 11               not depicted




                                                                                           Page 5 of 11
EDIB VERSION 4.0 FIELD OFFICE PROCESS                                                                 ATTACHMENT B
COMPLETE CASE FOR DDS

                 Exit
                 pg. 5




               Exit claim                 Erase
                in EDCS                   pg. 10


                                              Access                                                                 Pending
               Transfer edits
                                No          collect edits           Data                Supervisor will
     I         completed?                                                       No                          No        pg. 4
                                               screen             available?               override?


                  Yes                                               Yes                       Yes
    Cover
    pg. 5      Scan 3368?            No                              Make
                                                                                                I
                                                                   correction

                  Yes
                                                                                                          Erase
                                              Exit claim
               Print cover                                                                                pg. 10
         J     sheet screen




                                                                                       Is claim                        Pending
               Print 3368                  EDCS data base                             ready for             No          pg. 4
               cover sheet
                                                                                        DDS?

                                                                                         Yes
                Scan
                                          VSAM File storage
               cover &
                                                                                       Transfer
                 3368
                                                                                     case to DDS


                                              Exit scan
                Scan
                                No            & discard
               usable?                                              J                Any overtyped
                                                cover                                 propagated           No
                                                                                        fields?
                 Yes
                                                                                         Yes
                                                                                                                       DDS
               Accept &
                                          File 3368                                    Automatic                       pg. 4
                certify                                          3368                 repropagate
                                          in folder
                 scan                                                                  fields from
                                                                                        mainframe


                                                              Claim folder                                         To DDS
                                           Folder
              eDib image                  pgs. 2, 3,
               data base                   6&9
                                                                                                                Page 11 of 11
